<html>
<title> - A REVIEW OF THE NATIONAL EARTHQUAKE</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








.                   
                    A REVIEW OF THE NATIONAL EARTHQUAKE
                        HAZARDS REDUCTION PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2014

                               __________

                           Serial No. 113-88

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 
 
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
       
       
       
       
                                     _____________
                                  
                          U.S. GOVERNMENT PUBLISHING OFFICE
     89-417PDF                      WASHINGTON : 2015             

________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001    
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              ROBIN KELLY, Illinois
KEVIN CRAMER, North Dakota           KATHERINE CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS COLLINS, New York
BILL JOHNSON, Ohio
                                 ------                                

                Subcommittee on Research and Technology

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   FEDERICA WILSON, Florida
RANDY HULTGREN, Illinois             ZOE LOFGREN, California
STEVE STOCKMAN, Texas                SCOTT PETERS, California
CYNTHIA LUMMIS, Wyoming              AMI BERA, California
DAVID SCHWEIKERT, Arizona            DEREK KILMER, Washington
THOMAS MASSIE, Kentucky              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            ROBIN KELLY, Illinois
CHRIS COLLINS, New York              EDDIE BERNICE JOHNSON, Texas
BILL JOHNSON, Ohio
LAMAR S. SMITH, Texas



                                (II)
                                
                                
                                





                            C O N T E N T S

                             July 29, 2014

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative Scott Peters, Subcommittee on 
  Research and Technology, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    10
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    14
    Written Statement............................................    16

                               Witnesses:

                                Panel I

Dr. John R. Hayes, Jr., Director, National Earthquake Hazards 
  Reduction Program, National Institute of Standards and 
  Technology
    Oral Statement...............................................    18
    Submitted Biography..........................................    21

Dr. Pramod P. Khargonekar, Assistant Director, Directorate of 
  Engineering, National Science Foundation
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. David Applegate, Associate Director for Natural Hazards, U.S. 
  Geological Survey
    Oral Statement...............................................    48
    Written Statement............................................    50

Mr. Roy E. Wright, Deputy Associate Administrator for Mitigation, 
  Federal Emergency Management Agency
    Oral Statement...............................................    58
    Written Statement............................................    60

                                Panel II

Dr. Julio A. Ramirez, Professor of Civil Engineering, NEES Chief 
  Officer and NEEScomm Center Director, George E. Brown Jr., 
  Network for Earthquake Engineering Simulation (NEES), Purdue 
  University
    Oral Statement...............................................    84
    Submitted Biography..........................................    86

Dr. William U. Savage, Consulting Seismologist, William Savage 
  Consulting, LLC
    Oral Statement...............................................    98
    Written Statement............................................   100
Mr. Jonathon Monken, Director and Homeland Security Advisor, 
  Illinois Emergency Management Agency
    Oral Statement...............................................   107
    Written Statement............................................   109

Dr. Andrew S. Whittaker, Professor and Chair, Director MCEER; 
  Department of Civil, Structural and Environmental Engineering, 
  University at Buffalo, State University of New York
    Oral Statement...............................................   115
    Written Statement............................................   117

Discussion.......................................................    57

             Appendix I: Answers to Post-Hearing Questions

Dr. Pramod P. Khargonekar, Assistant Director, Directorate of 
  Engineering, National Science Foundation.......................   134

Mr. Roy E. Wright, Deputy Associate Administrator for Mitigation, 
  Federal Emergency Management Agency............................   144

Dr. Julio A. Ramirez, Professor of Civil Engineering, NEES Chief 
  Officer and NEEScomm Center Director, George E. Brown Jr., 
  Network for Earthquake Engineering Simulation (NEES), Purdue 
  University.....................................................   149

Dr. William U. Savage, Consulting Seismologist, William Savage 
  Consulting, LLC................................................   152

Mr. Jonathon Monken, Director and Homeland Security Advisor, 
  Illinois Emergency Management Agency...........................   154

Dr. Andrew S. Whittaker, Professor and Chair, Director MCEER; 
  Department of Civil, Structural and Environmental Engineering, 
  University at Buffalo, State University of New York............   156

            Appendix II: Additional Material for the Record

Statement submitted by Representative Daniel Lipinski, Ranking 
  Minority Member, Subcommittee on Research and Technology, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................   160

Letters submitted by Representative Larry Bucshon, Chairman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........   162

Letter submitted by Mr. Jay Berger, Executive Director, 
  Earthquake Engineering Research Institute......................   166

 
                  A REVIEW OF THE NATIONAL EARTHQUAKE



                       HAZARDS REDUCTION PROGRAM

                              ----------                              


                         TUESDAY, JULY 29, 2014

                  House of Representatives,
           Subcommittee on Research and Technology,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Bucshon. Good morning. The Subcommittee on 
Research and Technology will come to order.
    Welcome to today's hearing entitled ``A Review of the 
National Earthquake Hazards Reduction Program.'' In front of 
you are packets containing the written testimony, biographies, 
and truth-in-testimony disclosures for today's witnesses. I 
recognize myself for five minutes now for an opening statement.
    Earthquakes present a potential hazard to every State in 
our Nation. The U.S. Geological Survey recently updated its 
National Seismic Hazards Maps with research identifying that in 
the next 50 years, 42 of our 50 states have a chance of 
experiencing damaging ground shaking from an earthquake. There 
are 16 States in the United States that have a high likelihood 
of experiencing damage because they have sustained earthquakes 
with a seismic magnitude of 6 or greater. My home State of 
Indiana is at risk of experiencing the effects of earthquakes 
stemming from the New Madrid fault.
    Earthquakes are unique among natural hazards because they 
strike without warning. The cascading nature of an earthquake 
can induce secondary effects such as landslides, liquefaction, 
and tsunamis. Earthquakes impact people and communities 
worldwide from the devastation of loss of life and property to 
the turmoil caused by the disruption of important services, 
including water, electricity, and other utilities or lifelines 
including roads and bridges.
    In 1977 the Congress passed the Earthquake Hazards 
Reduction Act establishing the National Earthquake Hazards 
Production Program, or NEHRP, as a long-term earthquake risk-
reduction program for the United States. Four federal agencies 
contribute to NEHRP research and activities: the National 
Institute of Standards and Technology, the National Science 
Foundation, the United States Geological Survey, and the 
Federal Emergency Management Agency. Program activities are 
focused on supporting the development of earthquake hazard 
reduction measures, promoting the adoption of these measures by 
federal, state, and local governments, improving the 
understanding of earthquakes and their effects on people and 
infrastructure, and developing and maintaining the Advanced 
National Seismic System, the George E. Brown, Jr. Network for 
Earthquake Engineering Simulation, or NEES, and the Global 
Seismic Network.
    In Indiana, Purdue University leads the collaborative 
George E. Brown, Jr. Network for Earthquake Engineering 
Simulation, or NEES. The mission of NEES is ``to accelerate 
improvements in seismic design and performance by serving as an 
indispensable collaboratory for discovery and innovation.'' 
Support for research and activities that strengthen 
preparedness for, reduce the impact of, and aid in recovery 
from earthquakes will fortify the Nation's ability to respond 
to earthquake hazards.
    Today's hearing is a bipartisan effort to learn about NEHRP 
and understand the Nation's level of earthquake preparedness. 
We worked across the aisle to bring together two panels of 
experts who can shed light on these important issues. I look 
forward to hearing from all the witnesses on both of our panels 
to understand the work of the NEHRP agencies and how that work 
intersects with engineers, emergency managers, and lifeline 
experts.
    [The prepared statement of Mr. Bucshon follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Bucshon. At this point I ask unanimous consent to 
put two letters in the record regarding the NEHRP program: a 
letter from the American Society of Civil Engineers and a 
letter from the BuildStrong Coalition. Without objection, so 
ordered.
    [The information appears in Appendix II:]
    Chairman Bucshon. At this point I now recognize the 
gentleman from California, Mr. Peters, for an opening 
statement.
    Mr. Peters. Thank you, Mr. Chairman. Thank you for holding 
this hearing today on the National Earthquake Hazards Reduction 
Program, or NEHRP, an unfortunate acronym for an important 
program. I want to thank witnesses on both panels for being 
here today.
    Though infrequent, earthquakes are unique among natural 
hazards in that they strike without warning. While areas like 
my home State of California, in addition to Oregon, Washington, 
and Alaska, are the most well-known for earthquakes, 
earthquakes are not a hazard confined to the West Coast. A 2011 
earthquake here in Washington, D.C., caused over $200 million 
in damages, including damage to the Washington Monument and the 
Smithsonian, and it is estimated that 75 million Americans in 
39 States are exposed to significant seismic risk and nearly 
all states in the United States have some level of risk.
    In an effort to mitigate the harmful impacts and better 
prepare for future earthquakes, Congress authorized the 
National Earthquake Hazards Reduction Program, an interagency 
program that includes the National Institute of Standards and 
Technology, the National Science Foundation, Federal Emergency 
Management Agency, and the United States Geological Survey.
    Since NEHRP was founded in 1977, we have learned a lot 
about how to prepare for, mitigate, and respond to a large-
scale earthquake. Research programs, including ones at the 
University of California San Diego and San Diego State 
University, are underway to help us better understand 
earthquakes, develop safer building construction standards, and 
ensure that affected communities can respond to and recover 
from earthquakes as quickly as possible. But more work is 
needed.
    I am pleased we have representatives today from all four 
agencies here to testify about their activities to reduce the 
risks of life and property from earthquakes in the United 
States. I am also pleased that we will hear from outside 
stakeholders, both private sector and academic, about how the 
program is working and what if any changes are needed to 
improve its effectiveness.
    As my colleagues may know, the reauthorization of these 
risk-reduction programs is long overdue. The authorization for 
this program expired in 2009. Interagency programs like these 
improve our understanding of earthquakes and then turn that 
knowledge into mitigation and outreach activities that will 
save lives and reduce economic damages. While we can't prevent 
natural disasters, we can do more to lessen the cost to human 
life and property.
    Over the last two years the federal government has spent 
more than $136 billion, much of it off-budget, on relief for 
hurricanes, tornadoes, droughts, wildfires, and other extreme 
weather events. It is time that the government stops working in 
a reactive way to natural disasters and instead gets to work 
efficiently to get ahead of the issue and help States and 
localities find the best steps to prepare, plan for, and 
recover more quickly from these events.
    We know that for every $1 spent now in resiliency we can 
avoid at least $4 in future losses. It makes more sense to 
approach this by thinking how we can make our communities 
better prepared. If we are focused on reducing spending, let's 
do it in a way that saves us in the long run.
    Mr. Chairman, our goals are the same: to decrease the 
vulnerability of communities across the country including mine 
in San Diego. I look forward to working with my colleagues on 
both sides of the aisle on a bipartisan bill that would 
reauthorize the National Earthquake Hazards Reduction Program 
and welcome any comments from the witnesses about changes and 
updates that should be made to the authorization language.
    Thank you, Mr. Chairman, for holding the hearing. I look 
toward to hearing the testimony, and I yield back the balance 
of my time.
    [The prepared statement of Mr. Peters follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Bucshon. Thank you, Mr. Peters. I now recognize 
the Ranking Member of the full Committee for a statement, Ms. 
Johnson.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman, 
for holding this important hearing on the National Earthquake 
Hazards Reduction Program, or NEHRP. I also want to thank the 
Chairman of the full committee, Mr. Smith, for agreeing to this 
hearing. Chairman Smith agreed to hold a hearing on NEHRP and 
work on the NEHRP reauthorization bill while we were discussing 
the National Windstorm Impact Reduction Program. This hearing 
is a good first step in fulfilling that agreement. I want to 
thank the Chairman and majority staff for working with my staff 
on putting together this hearing.
    Though infrequent, earthquakes are unique among natural 
hazards in that they strike with little or no warning. In 1964 
Alaska was hit with a great earthquake that measured 9.2 in 
magnitude. That was the second-strongest earthquake in recorded 
history and resulted in significant damage from both the 
earthquake itself and the tsunamis that followed.
    California has numerous active faults that have produced 
large earthquakes in the last two decades, from 1971, the San 
Fernando earthquake to the 1989 Loma Prieta and the 1994 
Northridge earthquakes. In fact, NEHRP was established in 
Congress in response to the 1964 Alaska and the 1971 San 
Fernando earthquakes.
    Since its creation, NEHRP has accomplished a great deal. It 
has improved our understanding of earthquake processes, 
improved our earthquake hazard and risk assessments, improved 
earthquake safety for new and existing buildings, and increased 
public awareness of earthquake risk and mitigation techniques. 
But more work is still needed, including improving the 
earthquake resilience of communities nationwide and developing 
cost-effective measures to reduce earthquake impacts on 
individuals, the built environment, and society.
    To ensure that this work is accomplished, we need to 
reauthorize NEHRP, which has not had Congressional 
authorization since 2009. That is why I am a cosponsor of H.R. 
2132, the Natural Hazards Risk Reduction Act of 2013, which was 
introduced by Representative Wilson last May. H.R. 2132 would 
reauthorize NEHRP program, as well as the National Windstorm 
Impact Reduction Program, and would make changes to the Fire 
Research Program. This legislation is modeled after bipartisan 
legislation that passed the House by an overwhelming margin in 
the 111th Congress. And I am pleased that the windstorm program 
is reauthorized in a separate bill, H.R. 1786, that was 
introduced by Representative Neugebauer, and I supported that 
bill when it passed the House earlier this month.
    However, I do believe we need to take a multi-hazards 
approach to disaster mitigation. Taking a multi-hazards 
approach could create opportunities for synergy among the 
various research and mitigation activities. Further, a multi-
hazard approach could help achieve the goal of producing 
communities that are resilient to any and all disasters. I hope 
that as we work on a NEHRP reauthorization bill we look for 
opportunities to create synergies and coordination across the 
hazards program.
    I want to thank the witnesses from both panels for being 
here today, and it is important to hear from you as we consider 
reauthorizing this important program. I look forward to your 
testimony.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Ms. Johnson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    Chairman Bucshon. Thank you. Just as a sideline, I have 
been in three earthquakes myself: one in Southern California in 
the late '80s; one in Illinois, southern Illinois when I was a 
kid; and one in Evansville, Indiana, in about 2001. So it is a 
fairly--if you have never been in an earthquake, it is a fairly 
unique experience.
    At this point if there are Members who wish to submit 
additional opening statements, your statements will be added to 
the record.
    [The prepared statement of Mr. Lipinski appears in Appendix 
II:]
    Chairman Bucshon. At this time I would like to introduce 
our first panel of witnesses. Our first witness today is Dr. 
John Hayes, Jr. Dr. Hayes is the Director of the National 
Earthquake Hazards Reduction Program of the Engineering 
Laboratory at the National Institute of Standards and 
Technology.
    Our next witness is Dr. Pramod--I said this before and now 
I will get it correct--Khargonekar is the Assistant Director 
for the Directorate of Engineering at the National Science 
Foundation. Welcome.
    Our third witness is Dr. David Applegate. Dr. Applegate is 
the Associate Director for Natural Hazards at the U.S. 
Geological Survey.
    And our final witness on the first panel is Mr. Roy Wright. 
Mr. Wright serves as the Federal Emergency Management Agency's 
Deputy Associate Administrator for Mitigation.
    As our witnesses should know, spoken testimony is limited 
to five minutes each. I now recognize Dr. Hayes for five 
minutes to present his testimony.

         TESTIMONY OF DR. JOHN R. HAYES, JR., DIRECTOR,

         NATIONAL EARTHQUAKE HAZARDS REDUCTION PROGRAM,

         NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

    Dr. Hayes. Chairman Bucshon, Congressman Peters, and other 
Members of the subcommittee, thank you for inviting me to 
testify as you review the National Earthquake Hazards Reduction 
Program, or NEHRP, for possible reauthorization.
    Mr. Peters, I can assure you that the acronym NEHRP grows 
on you after a while so it works.
    In your invitation to me you asked me to address several 
topics and I will try to address each one of those briefly in 
my testimony this morning.
    NIST fulfills two broad roles within NEHRP. First, NIST 
performs statutory lead agency duties, including supporting an 
Interagency Coordinating Committee and the Advisory Committee 
on Earthquake Hazard Reduction, drafting and updating NEHRP's 
strategic plans, submitting annual NEHRP reports to Congress, 
and fostering interagency coordination and cooperation.
    Second, NIST performs applied research related to 
earthquake engineering, including developing performance-based 
design tools, guidelines, and standards for practitioners who 
design buildings to resist earthquake effects.
    A 2003 applied Technology Council report identified a major 
earthquake engineering technology gap between performing basic 
research and developing earthquake-related provisions for 
national model building codes and standards. NIST bridges this 
gap with its Applied Earthquake Engineering Research Program. 
In 2008 the NEHRP agencies produced a NEHRP strategic plan 
which guides NIST's way forward. The National Research Council, 
or NRC, developed a 20-year action plan for improving U.S. 
earthquake resilience, and in the process endorsed the NEHRP 
strategic plan. The Building Seismic Safety Council, or BSSC, 
formulated recommendations for applied research that point NIST 
toward addressing the broad research directions that were set 
by the NRC plan.
    NIST research projects address issues identified by leading 
earthquake engineering practitioners and researchers, as well 
as the work that was suggested by BSSC in its plan. NIST's 
research includes significant interactions with the NEHRP 
partners and continuous engagement with other leading 
earthquake researchers and practitioners. Alongside FEMA and 
USGS, NIST participates in the technical committees that 
develop new building codes and standards. This provides direct 
access to practicing engineers' needs and facilitates the 
effective transfer of new knowledge gained through NIST's 
research back to the practitioners.
    NIST's work is subdivided into program elements that 
includes seismic design technical briefs, codes and standards 
support projects, structural and geotechnical engineering-
related projects, and planning projects that support both NIST 
and NEHRP-wide activities. Since 2008 NIST has produced 
approximately 30 reports on these topics that are in widespread 
use by practitioners and researchers alike. Webinars have also 
been developed to inform practitioners in the United States and 
around the world about these tech briefs.
    Coordination among the NEHRP agencies fosters synergies 
that complement agency capabilities. FEMA and USGS work closely 
on earthquake hazards definitions, hazard mapping, and 
earthquake monitoring. NIST and FEMA work closely in fulfilling 
the respective roles for engineering research and 
implementation and NIST has formed a very special partnership 
that involves frequent exchanges of project information and in 
some instances direct collaboration on critical projects. FEMA, 
USGS, and NIST work closely with NSF-supported researchers to 
ensure effective transfer of basic research knowledge into 
NIST's research programs.
    In closing, I note that NEHRP was created to address the 
reality that earthquakes are inevitable and occur without 
warning. NIST has done much to minimize their consequences but 
much more needs to be done. The NEHRP agencies translate NIST's 
research results into actions to ensure that Americans are less 
threatened by the effects of devastating earthquakes. The NEHRP 
agencies fulfill unique but complementary roles in a 
partnership not duplicated elsewhere.
    It is also important that I note that the NEHRP family 
extends well beyond the four NEHRP program agencies to other 
federal agencies, state and local governments, nongovernmental 
professional organizations, model building codes and standard 
organizations, and earthquake professionals both in the private 
sector and academia. Without these dedicated professionals, the 
NEHRP agencies could not satisfy the statutory 
responsibilities.
    Thank you again for the opportunity to testify this 
morning. This concludes my remarks and I am happy to answer any 
questions that you may have.
    [The prepared statement of Dr. Hayes follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Chairman Bucshon. Thank you, Dr. Hayes.
    I now recognize Dr. Khargonekar for his testimony.

            TESTIMONY OF DR. PRAMOD P. KHARGONEKAR,

                      ASSISTANT DIRECTOR,

                  DIRECTORATE OF ENGINEERING,

                  NATIONAL SCIENCE FOUNDATION

    Dr. Khargonekar. Chairman Bucshon, Ranking Member Lipinski, 
and other distinguished Members of the Subcommittee, it is my 
pleasure to be able to testify before you today on the topic of 
National Science Foundation's activities in earthquake hazards 
reduction. I am Pramod Khargonekar, Assistant Director for 
Engineering at NSF.
    Since the start of NEHRP, NSF has supported a broad range 
of fundamental research in geosciences, engineering, and social 
sciences relevant to the understanding of the causes and 
impacts of earthquakes. The Foundation also provides support 
for education of new scientists and engineers, the integration 
of research and education, and outreach to professionals and 
the public. Today, I would very briefly like to outline NSF's 
NEHRP efforts related to facilities, research, and 
coordination.
    NSF funds three distributed multiuser national facilities 
that support critical fundamental research relevant to NEHRP. 
The George E. Brown, Jr. Network for Earthquake Engineering 
Simulation, or NEES, the Geodesy Advancing Geosciences and 
EarthScope, or GAGE, and the Seismological Facilities for the 
Advancement of Geoscience and EarthScope, or SAGE.
    NEES currently provides access to 14 earthquake simulation 
experimental facilities located in eight States. The NEES 
facilities include shake tables, large-scale labs, geotechnical 
centrifuges, field testing equipment, and a tsunami wave basin. 
NEES operations are currently supported through an award to 
Purdue University covering the fiscal years 2010 to 2014. 
Following 2014, NSF has updated its strategy for the future of 
NEES operations, which will include NSF support for multiple 
NEES awards managed under a single program. This strategy 
maintains the NSF commitment earthquake research and 
infrastructure while aligning it more strategically under a 
multi-hazards approach.
    The GAGE and SAGE facilities provide key data, 
instrumentation, and educational information and basic research 
and education in the Earth sciences. Of particular relevance to 
NEHRP, SAGE supports the Global Seismographic Network, GSN, a 
worldwide array of 153 permanent seismic stations funded by NSF 
and USGS with additional support from the Departments of 
Energy, State, and Defense.
    Complementing these facilities, NSF funds a wide range of 
fundamental research into the processes that drive and control 
earthquakes and into the impacts of earthquakes on the built 
environment. This includes individual investigative grants, 
research centers, and a variety of research collaborations.
    NSF also supports rapid response activities to gather data 
from disaster sites using its RAPID funding mechanism. In the 
response to recent earthquakes in New Zealand and Japan, NSF 
supported over 30 RAPID awards.
    Another research effort conducted in partnership by NSF and 
USGS is EarthScope, an Earth science program to explore the 
structure of North America and provide a framework of broad 
integrated studies. Scientists using EarthScope data are 
developing a comprehensive understanding of the structure, 
dynamics, and evolution of North America.
    NSF supports multiagency collaboration on NEHRP activities 
through a variety of matters. In addition to research 
collaboration, NSF actively contributes to the NEHRP Program 
Coordination Working Group and the Interagency Coordinating 
Committee.
    Finally, NSF staff regularly briefs the NEHRP Advisory 
Committee for earthquake hazards reduction and responds to 
recommendations for NSF.
    In closing, I would like to leave you with two quick 
examples of some recent achievements of NSF-funded grantees. 
NSF-funded researchers have discovered how to make underground 
water lines that bend and move rather than snap and rupture in 
an earthquake. The Cornell team found that medium and high 
density polyethylene pipelines remain intact even when the 
Earth liquefies and shifts. The City of Los Angeles is now 
installing these pipelines the in Elizabeth Tunnel, which 
provides half the city's water supply.
    The second example concerns ports. In 2005 NSF supported a 
research project led by Georgia Tech which examined the seismic 
vulnerability of ports. Project researchers found that a 
majority of the ports located in the areas of high seismic risk 
had either no or only informal seismic risk mitigation plans. 
Utilizing unique NEES facilities, the project team developed a 
new approach for assessing and managing seismic risk in 
container ports.
    Mr. Chairman, NEHRP is a strong and dynamic program at NSF 
and we hope to continue to support research, education, and 
facilities to mitigate the impacts of earthquake hazards. I 
thank the Subcommittee for considering priorities for 
reauthorization of the program and appreciate the opportunity 
to testify today. Thank you.
    [The prepared statement of Dr. Khargonekar follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. Applegate for his testimony.

               TESTIMONY OF DR. DAVID APPLEGATE,

            ASSOCIATE DIRECTOR FOR NATURAL HAZARDS,

                     U.S. GEOLOGICAL SURVEY

    Dr. Applegate. Great. Well, thank you, Chairman Bucshon and 
Congressman Lipinski, other Members of the Subcommittee. I very 
much appreciate the invitation for the U.S. Geological Survey 
to testify at this hearing.
    The USGS is proud to be part of the NEHRP four-agency 
partnership effort. I think it has been highly successful and 
continues to make valuable contributions to the Nation's 
resilience to earthquakes.
    As Jack Hayes noted, NEHRP is predicated on the recognition 
that while earthquakes are inevitable, their consequences are 
not and there is much that we can do as a nation to improve 
public safety when it comes to earthquakes and related hazards. 
Within NEHRP, each agency performs a distinct and complementary 
role essential for the overall success of the program. The 
heart of this partnership is a broadly shared commitment to 
translate research results into implementation actions that can 
reduce earthquake losses. That commitment involves 
collaboration that goes well beyond the four NEHRP agencies to 
include other federal partners, plus state, tribal, and local 
governments, universities, nongovernmental organizations, and 
the private sector, as reflected in the second panel.
    Carrying out its role within NEHRP, the USGS strives to 
deliver the data and information tools that engineers and 
design professionals, emergency managers, government officials, 
and the public need to prevent earthquake hazards from becoming 
earthquake disasters. With its partners, the USGS provides 
rapid and authoritative information on earthquake size and 
location, shaking intensity, and potential impacts. We develop 
hazard assessment maps and related products, we support 
targeted research to improve our monitoring and assessment 
capabilities, and we build public awareness of earthquake 
hazards.
    When damaging earthquakes strike here in the United States 
or around the world, the USGS delivers a broad suite of 
information tools that are made possible by our Advanced 
National Seismic System and the worldwide coverage of the 
Global Seismographic Network, which is a program involving 
USGS, the National Science Foundation, and the Incorporated 
Research Institutions for Seismology.
    The ANSS consists of a national backbone network, regional 
networks that are operated by state and university partners, 
the USGS National Earthquake Information Center, and ground and 
structure-based instruments concentrated in high-hazard urban 
areas. With funding from Congress since 2000, USGS and its 
partners have installed more than 2,800 new and upgraded 
stations out of a total of 7,100 that are targeted in the ANSS 
plan for full implementation of the system. Investments in ANSS 
have greatly improved the information available for emergency 
responders, engineering performance studies, and long-term 
earthquake hazard assessments.
    Recent earthquakes in Colorado, Oklahoma, and Virginia, 
that last one felt up and down the East Coast, have underscored 
the national nature of earthquake risk. One of the most 
important achievements that NEHRP has made is the translation 
of research into national models of the location and expected 
severity of earthquake shaking within specified time periods. 
These models are in turn used to generate maps that are 
incorporated into the seismic safety elements of building codes 
and standards.
    As you noted in your opening statement, earlier this month 
the USGS released the latest update of the National Seismic 
Hazard Maps, the timing coordinated with the consequent release 
of the next generation of model building codes and seismic 
safety standards, a process that involves close collaboration 
among USGS, FEMA, the Building Seismic Safety Council, American 
Society of Civil Engineers, International Code Council, and 
other organizations. Complementing the national maps, urban 
seismic hazard maps provide more detailed information on local 
site conditions for use in engineering and planning, most 
recently delivered for Evansville, Indiana.
    Looking forward, the Administration's 2015 budget continues 
several initiatives that Congress supported in 2014. In 
particular, I wish to highlight Earthquake Early Warning, which 
we see as representing the next advance in public safety. 
Modern seismic networks can in favorable circumstances provide 
a minute or more of warning before the onset of strong shaking. 
In a number of countries around the world, operational 
earthquake early warning systems exist today. The USGS has 
supported research and development toward establishing such a 
capability in California, and the test system is now operating 
and delivering warnings to a small group of test users. 
Considerable additional testing and equipment deployment will 
be required to create a robust and reliable warning system, but 
we are on our way.
    In conclusion, USGS and the Department of the Interior 
strongly support reauthorization of NEHRP. It has proven to be 
a successful partnership that continues to make valuable 
contributions to the Nation's resilience to earthquake and 
other hazards.
    Thank you, Chairman, for the opportunity to provide the 
Subcommittee with the USGS views, and I would be pleased to 
answer any questions.
    [The prepared statement of Dr. Applegate follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Bucshon. Thank you very much.
    I now recognize Mr. Wright for his testimony.

                TESTIMONY OF MR. ROY E. WRIGHT,

         DEPUTY ASSOCIATE ADMINISTRATOR FOR MITIGATION,

              FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Wright. Good morning, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the Subcommittee. I thank you for 
having me here today.
    I am Roy Wright, the Deputy Associate Administrator for 
Mitigation within the Department of Homeland Security's Federal 
Emergency Management Agency. It is my pleasure to be here today 
to discuss the National Earthquake Hazards Reduction Program 
and FEMA's principal responsibilities within that program.
    I want to start by giving you my simple bottom line. By 
including science into building codes, conducting outreach, and 
advancing mitigation, the NEHRP funds enable state-level 
efforts to better prepare for earthquakes. These actions make 
the Nation more resilient and better able to address this 
threatening hazard. As others have said this morning, these are 
no-notice events and they can be catastrophic. And we share the 
view that while earthquakes may be inevitable, disasters caused 
by earthquakes are not. This really guides everything that we 
do.
    FEMA and our NEHRP partners have made significant progress 
in earthquake safety since NEHRP was established 37 years ago. 
Although changing demographics and economic conditions present 
challenges, the program is committed to building on our 
progress, developing practical solutions to reduce or eliminate 
the earthquake risk, and ensuring our nation's continued 
resilience.
    I would briefly like to talk with you this morning about 
two areas of our focus: building codes and education. In terms 
of building codes, NEHRP primarily works with the National 
Codes and Standards to promote implementation of research 
results. That is, we work with stakeholders to ensure the 
promotion of and use of those building codes so that we all can 
be safer. For example, FEMA worked with the International Code 
Council and other partners in the 2009 edition of the 
International Residential Code to develop updated provisions 
for braced sheer wall panels which help ensure the stability of 
a structure.
    As you can see from the maps on the screens, adoption of 
these codes strong in some areas of the country, particularly 
those where they are most likely to experience an earthquake. 
It is something we are proud of and we have worked hard with 
our partners to achieve, but there is more to do. There are 
still too many areas where the risk is high but adequate 
building codes have not yet been adopted. This leaves these 
communities vulnerable to the impacts of potential earthquakes. 
We still have much more that needs to be done and we are 
committed to educating these communities on best practices and 
the importance of earthquake hazard mitigation, which brings me 
to our second area of focus: education.
    FEMA develops and supports public education and awareness 
programs on earthquake loss reduction, sharing best practices, 
and encouraging mitigation. We pursue all of this of course to 
create resilience and help ensure the safety of our citizens. I 
would like to give you but one example of our work in this 
area. After we were approached by the City of San Francisco, 
FEMA commissioned a study to examine whether it was possible to 
retrofit only the first story of a weak-story building without 
altering the rest. So a weak-story building is a multistory 
wood-framed building where the first floor is much weaker than 
the upper stories due to a garage or a storefront opening. FEMA 
published its findings and created an electronic tool that 
allows an engineer to assess the strength of walls on the first 
floor and upper floors. Then the engineer can virtually 
strengthen these walls and recalculate the strength. The goal 
is to strengthen the first floor just enough so the entire 
building can withstand an earthquake.
    As a Nation, our architects, engineers, local officials, 
homeowners, and our federal partners, we all have an 
indispensable role to play in preparing for earthquakes and 
mitigating their impacts. The NEHRP has done a commendable job 
in identifying the hazards, communicating the risks, and 
researching how we can protect our citizens. As we look forward 
to reauthorization, more must be done. It is not enough to 
educate the public about what earthquakes can do. Until we are 
able to convince the public to take action to address that 
risk, we have not truly implemented this program. We must 
continue to work together across the whole community to move 
beyond understanding risks to making concrete steps to mitigate 
and strengthen our collective resilience.
    Thank you and I appreciate the opportunity to come before 
you this morning and I look forward to your questions.
    [The prepared statement of Mr. Wright follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Chairman Bucshon. Thank you very much. I would like to 
thank the witnesses for their testimony.
    I am reminding the Members that Committee rules limit 
questioning to five minutes. The Chair at this point will open 
the round of questions. The Chair recognizes himself for five 
minutes.
    Dr. Hayes notes in his testimony that maintaining the 
serviceability of lifeline systems is critical to societal 
resilience. What research and development is being supported 
through NEHRP related to lifelines in a seismic event and what 
more needs to be done? I will address that to Dr. Khargonekar 
first.
    Dr. Khargonekar. Chairman Bucshon, that is a very, very 
important question. We are funding research in this area at a 
number of institutions across the research universities in the 
United States. I don't have a list of projects that we are 
funding, but just to go back to the example I gave about high 
density polyethylene pipes, this is a major impact of the kind 
of work that NSF has supported in this space.
    Chairman Bucshon. You might just--when you do have that 
list might just submit that for the record so we will have that 
in the Congressional record what you are doing.
    Anyone else have any other comments?
    Dr. Hayes, you mentioned this in your testimony.
    Dr. Hayes. Yes, sir. If I could just comment briefly, the 
NEHRP agencies are currently in the process of wrapping up a 
study with a contractor who is examining all of the issues 
related to lifelines research and implementation. That report 
should be out sometime within 60 to 90 days, and it outlines 
what NSF-supported researchers at the basic level need to do, 
what NIST needs to do at the applied level, the kinds of things 
that USGS needs to do, and the kinds of things that FEMA needs 
to do to implement lifelines safety efforts as well.
    And one of the key issues there is that lifelines are 
absolutely critical to societal resilience in any given 
community around the country, and one of the main findings so 
far has been that no matter whether it is an earthquake or some 
other hazard, the disruptions to lifelines are really critical 
and we hope the study will help point all of us in the future 
on what we should be doing in that area.
    Dr. Applegate. Just very briefly, one area that we have 
been working on is developing scenarios that sort of play out 
the impacts of events, trying to make the hazard real to people 
before they have to go through the catastrophic event. And 
lifelines have been a very important part of that, getting the 
operators together, getting their input, understanding what 
those consequences--those cascading consequences are going to 
be, and particularly in California and Southern California and 
now with the new focus on the Hayward Fault in the Bay Area, 
what those impacts--what can be done before the event to change 
those outcomes.
    Chairman Bucshon. Thank you.
    Mr. Wright, part of the preparedness puzzle is learning how 
to work together and forming a seamless response and recovery 
effort. Can you comment on the coordination between federal, 
state, and local stakeholders and their roles in earthquake 
response? You had some of that in your testimony, but kind of 
talk about that a little more, and how do NEHRP stakeholders 
coordinate efforts with emergency responders?
    Mr. Wright. Absolutely. It is FEMA's responsibility to look 
across all hazards and ensure that we are prepared for them. 
And as we look at these seismic elements, very specific 
investments have been made. In 2011 there was a national-level 
exercise that looked across the New Madrid area where we 
brought together the totality of the federal family, but 
particularly working with the state emergency managers as well 
as the state and locals. We do this across the West Coast. And 
there is a particular relationship we share with the USGS on 
this by which we are directed to ensure that the kind of 
warnings and insights that can be given to us from the USGS 
then move its way out. That helps from a response and from a 
recovery. Obviously you look at these larger earthquakes that 
played out in California, Loma Prieta, and Northridge where 
significant dollars were made available under the Disaster 
Relief Fund after the event. But collectively, it is that kind 
of integrated respond that we do, and it is a long-standing 
relationship, particularly between myself and Dr. Applegate and 
others across our agencies to make that happen as cooperation 
with the state and locals.
    Chairman Bucshon. Yeah, because I think that is critically 
important along with the lifelines. The last earthquake I was 
in I was on the 6th floor of the hospital in Evansville, 
Indiana, and nothing happened but if that was an area where a 
hospital lost access to water and power that couldn't be 
restored quickly, it is a big issue. I didn't think it was an 
earthquake and the patient did. She was an elderly lady and she 
said I think it is an earthquake. I said no, it can't be an 
earthquake. So I turned on the TV and sure enough, it was an 
earthquake.
    I now recognize Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I am very hopeful that we can do a NEHRP 
reauthorization soon.
    It was good to hear all the testimony today. I want to 
thank Dr. Applegate for work USGS has done with my staff and 
with me. We have gone through a few conversations about an 
earthquake that I felt sitting at my kitchen table at home that 
was--we believe was induced by some quarrying activity and 
there is more work going on with that. But it was very helpful 
for me to be able to have those discussions to try to get at 
and understand what had happened there, so I thank you for--
thank USGS for that.
    I wanted to ask Dr. Khargonekar about social science 
research. You mentioned in your testimony of the involvement of 
social science research and NSF's efforts on earthquake 
research. How does social, behavioral, and economic research 
help with planning effective risk mitigation efforts and how 
does--how is SBE research integrated into NSF's NEHRP 
activities?
    Dr. Khargonekar. Congressman Lipinski, thank you very much 
for that question, which is evidently very important.
    If you think about resiliency, which is certainly one of 
the major objectives, people's behavior plays a huge role in 
terms of how we can achieve systems that can recover from a 
major disaster. NSF is funding a number of projects in that 
area out of the Directorate of Engineering. We have a program 
on Infrastructure Management and Extreme Events that funds 
social science type of research. For example, how do we 
communicate risk? How do people respond to those types of 
communications?
    And things are changing. I mean with the mobile phones and 
cellular technologies and so forth, people are getting their 
information in very different ways than used to be the case 
before. We are funding research into the next frontier that can 
allow us to leverage all the advances in technology and couple 
it to people's perception of risk, the reactions to risk, and 
those types of activities. So we believe this to be a very 
important part of the research program. It is no good to come 
up with technological solutions that people don't use for 
improved public safety and the safety of themselves and their 
property and so on and so forth.
    Mr. Lipinski. Thank you.
    And I wanted to--the next thing I want to address is 
building codes and address this to Dr. Hayes and Mr. Wright. We 
know that strong and modern building codes are often cited as 
the most effective tools for limiting the impact of 
earthquakes. How do model building codes in the United States 
compared to building codes in other countries such as Chile, 
Haiti, Japan, and New Zealand? And what have we--what lessons 
have we learned about the design of resilient structures from 
the recent earthquakes in these countries that I mentioned?
    So, Dr. Hayes, do you want to begin?
    Dr. Hayes. I think our current building codes are actually 
quite comparable to those that you would see in some of the 
countries you mentioned, particularly New Zealand and Japan. 
They are not identical. They have evolved in slightly different 
ways, but the earthquake professional community around the 
world is extremely close-knit and the provisions that are in 
one country will bear a striking resemblance quite often to 
provisions in another country.
    The NEHRP agencies study the earthquake events that occur 
in other countries to try to learn from them, particularly when 
the building codes in those countries lead to construction that 
is very similar to what we see in our country. And we are very 
conscious of the earthquake that occurred down in Chile that 
led to a lot of interest here in the United States and also the 
one in New Zealand that occurred in Christchurch.
    And in Christchurch, we haven't yet had a chance to study 
that much about it, but a couple of things that have leaped out 
at us about Christchurch is that the liquefaction that occurred 
in the area is very similar to liquefaction that could occur in 
many earthquake-prone areas in our country, particularly in the 
middle United States. And the older buildings in Christchurch 
that were severely damaged bear a striking resemblance to the 
kinds of brittle or non-ductile buildings that you would see in 
many cities in the United States, and I think there is a lesson 
there that we all carry that these older buildings are really 
something that really need to be looked at very carefully in 
the future as we look at how we make our society more 
resilient.
    In New Zealand also I think that there was a realization 
that a moderate earthquake which people had thought might 
happen could be much more damaging than perhaps it was expected 
to be in Christchurch. That was a devastating event there and 
the area has not fully recovered yet over two years later. It 
is still working on doing that.
    In Chile, their primary means of engineered construction 
was in reinforced concrete, and it turns out that in Chile they 
have adopted much of the American Concrete Institute's 
provisions for seismic design in our country, but not all, and 
we have been studying what happened down there to learn from 
what went well and what didn't go so well in their buildings 
and have produced a couple of reports on that already.
    Mr. Lipinski. End of my time but if the Chairman would 
allow Mr. Wright--do you have anything to add?
    Mr. Wright. Just briefly to build on that. I think that 
what we learned from the work we see in Japan and Chile, we 
work with the other agencies that are here after those events 
and in particular to see how those elements will perform. 
Again, we are on a three-year cycle with the building codes in 
this nation by which we are continuing to make sure that those 
are being updated. The 2015 ones have now been set, and we 
would look to the kinds of things that we will learn from 
Christchurch and Chile in terms of what it would mean to inform 
the next cycle.
    Mr. Lipinski. Thank you.
    Chairman Bucshon. Thank you.
    I will just--sure--Dr. Khargonekar, go ahead.
    Dr. Khargonekar. Well, In the spirit of the question, I 
would like to offer an example. We supported a RAPID response 
team in Hawaii and Oregon State to perform a high resolution 
survey of damaged coastline around Japan after the Tohoku 
Earthquake. Now, cutting long story short, they have collect 
data and their results are now being used by the committee 
working on Chapter 6 on tsunami loads and effects for ASCE 7 
standards. So we think that that is a great example where we 
fund research to go collected data, do all the work, and it 
comes back in effect. So we think that once the ASCE 7 
standards are adopted, it will improve the whole building code 
in that particular section. Thank you.
    Mr. Lipinski. Thank you.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Johnson for his line of questioning.
    Mr. Johnson of Ohio. Thank you, Mr. Chairman. And I want to 
thank our panel for being with us today.
    You know, while your agencies are the four NEHRP agencies 
as defined in statute, I understand that other agencies such as 
NASA also conduct seismic or earthquake-related research and 
activities. Have there been any related earthquake-related 
collaborations that your agencies participated in with other 
agencies? And if so, what were those agencies and can you give 
us any idea of the work that was done to help us better prepare 
for earthquakes? Any of you?
    Dr. Applegate. I can start on that one. Yeah, absolutely. 
It is a very good point. There are many different agencies that 
are involved in the earthquake arena and we actually have a 
White House Subcommittee on Disaster Reduction that brings 
together all of those agencies looking at different hazards and 
it is a way to bring this partnership in and coordinate with 
the broader effort.
    With NASA, the USGS works very closely on, for example, SAR 
technology, Synthetic Aperture Radar, where you can use 
overlapping images to see change patterns. And so using that 
remote sensing technology that has been developed through NASA 
has been very valuable for understanding the damage patterns, 
for example, after events.
    We also work very closely with the U.S. Nuclear Regulatory 
Commission. Of course they have very specific concerns and 
issues as they ensure the safety of the Nation's nuclear power 
plants and they have supported some tremendous research looking 
at particularly some of these sort of very long-term--you know, 
the Black Swan type events and events in the eastern and 
central United States. So there are a number of other agencies 
that play a key role here.
    Mr. Johnson of Ohio. Okay. Thank you.
    Anybody else?
    Dr. Khargonekar. On the disaster recovery side of the 
problem, we work closely with other agencies such as Department 
of Transportation on developing plans on how one would recover 
from disasters. We have ongoing research projects and 
activities that bring together these communities.
    Mr. Johnson of Ohio. Okay. All right. Well, thank you.
    Shifting gears just a little bit, talking about earthquake 
hazard mitigation, what type of research in your opinion is 
needed to better understand and encourage people to adopt 
earthquake hazard mitigation measures? I mean what is our 
greatest weakness in terms of our current approach to 
earthquake mitigation?
    Mr. Wright. Well, I will start. It is--the country's 
understanding of risk is a very difficult thing to somehow 
pierce through. We see this across many of the natural hazards 
by which they may understand that there is a hazard that could 
affect them but they somehow believe that it won't necessarily 
impact them the day that it occurs, this kind of cognitive 
dissonance that sits there. And so it is that kind of 
partnership that goes towards that social science research that 
helps us get past those next kind of pieces.
    You look across the Nation and, as I was showing the map of 
it earlier, about--there are high seismic risks in parts of the 
country, yet the element that we know does the most to help 
mitigate that related to building codes, many have not chosen 
yet to adopt those. And so these elements are things we 
continue to collaborate, particularly with the National Science 
Foundation, but others as well in terms of how do we link what 
we know on the seismic side with the social science side?
    Mr. Johnson of Ohio. So it is kind of ``it is not likely to 
happen to me'' syndrome that we are dealing with?
    Mr. Wright. That is exactly the case. And we struggle with 
this across a whole range of hazards that we would deal with in 
an emergency management space, but these kind of no-notice 
events that happen on sort of a severe or catastrophic level on 
a far less frequent basis really allow people's attention to 
them to erode.
    Dr. Khargonekar. I would like to just add a few comments to 
what was stated. You know, one of the questions you may ask is 
what is the impact of having insurance on people's behavior in 
adoption of solutions? So we funded again collaborative 
research with colleagues in New Zealand because their situation 
is very similar to the United States' situation with respect to 
insurance, and we are funding research, we are collecting data 
from Christchurch to see what was the impact of having 
different kinds of insurance on people's behaviors and 
decisions, so it is sort of the social, behavioral science type 
of activity, and that complements what was said earlier.
    Mr. Johnson of Ohio. So do you have any examples of low-
hanging fruit in overcoming that risk avoidance or 
lackadaisical attitude if you will? I guess that is a good way 
to phrase it. Any ideas on how we go about penetrating that? 
You talked about some of them but----
    Mr. Wright. I think part of what we have found when we deal 
with these issues some of it happens from a grassroots 
perspective but local elected leaders and particularly the 
economic drivers in the community often are the kind of place 
by which they are able to provide the kind of leadership in a 
State--you look at--there are particular things that happen in 
some of the major industries that are in the Memphis area and 
how they began to really lean forward in this space and work 
with those local electives to pay more attention to this kind 
of risk.
    Mr. Johnson of Ohio. Okay. Well, thank you.
    Mr. Chairman, I yield back.
    Chairman Bucshon. Thank you.
    I would like to just comment on what you talked about 
briefly and I think in healthcare we are acutely aware of 
people's lack of understanding of statistical probability. I 
think it may start in grade school where we are not doing a 
good enough job for people, in all seriousness, understanding 
statistics, and that is very important. Without that 
understanding, you can't really figure out what the risk is 
so----
    Mr. Wright. Without question.
    Chairman Bucshon. Yes.
    Mr. Collins, I recognize you for five minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    I am kind of a private sector guy. I am new to Congress but 
I have spent decades in the private sector, and I always come 
to work and when I tour companies now, the first thing I look 
for on the wall is a vision statement. Why did you come to work 
today? And a mission statement, what are we going to try to 
accomplish? And I always talk about five-year strategic plan 
and so forth and so on, just very metric-driven and results-
oriented.
    So I guess with half the money--Dr. Applegate, for NEHRP, 
more or less half of it going to your agency, and I know you 
are natural hazards so that is beyond just earthquakes, but a 
simple question. Is there an underlying vision statement and/or 
mission statement related to the work that we are doing on 
earthquakes that somebody would see when they come to work and 
say this is the Holy Grail? Or--and is there a strategic plan 
within your organization? And if so, are there like three 
things you could point to, ABC, that you accomplished last year 
and three more this year and three more next year, just kind of 
hard things?
    Dr. Applegate. Sure, absolutely. Working in the broader 
hazards mission of the USGS, and I oversaw these earthquake 
efforts previous to that, yes, you know why you get up in the 
morning and it is about making the American people safer. It is 
as simple as that. It is a public safety mission. We are trying 
to ensure that science is there to help people when the event 
strikes so that we are providing the situational awareness, 
where the shaking is most intense, what the emergency managers 
need to be able to respond, what the public needs to know.
    But the most important things we do are what happens before 
the event and that is what has been talked about a lot here. We 
use our seismic hazard assessments to bring everything that we 
know about the hazard both from the fundamental research coming 
through NSF, as well as the targeted research we do that feeds 
then into the building code process and helps to make people 
safer. So you have the one element is the monitoring, the 
situational awareness; the other is the assessment 
understanding so that you can build buildings that are going to 
be safe for people.
    And the third piece of it is education. It is just what we 
were talking about. How do you make these hazards real to 
people? And so we do a lot with our agency partners in the 
public preparedness arena, the shakeout events which now--
started in California but they now involve--I think we are up 
to about 38 of the States--FEMA has been a big supporter of 
this--to simply get people to participate in drop, cover, and 
hold drills and do one of the things to protect themselves.
    Jack would be the best to talk about the broader NEHRP 
strategic plan. Within USGS, we have nested our earthquake 
hazards program plan within that broader NEHRP strategy as well 
as within our broader natural hazards mission.
    Mr. Collins. Now, I would think early warning would go a 
long way. And I understand we have got a pilot program in 
California, but if there is probably anything that could truly 
save lives, you can't prevent the earthquake, but if somebody 
had even the one- or two-minute warning, it----
    Dr. Applegate. Absolutely. I mean I think what we saw in 
the Japan, there are three key elements. I mean there were 
relatively low--from the magnitude 9 earthquake, giant 
earthquake that struck that country, relatively low fatalities 
from the earthquake shaking itself, probably in the order of 
maybe 100, 150. That reflects three things. One of them is 
building codes. They were--people were in buildings that did 
not collapse, and that is I think the first thing and the most 
important. Then it is that public awareness, that culture. The 
third thing is they have early warning and so people did 
receive the notice before the shaking event so they could get 
themselves safe. There are a lot of things that can be done 
even with just a few seconds. And so we are trying to move 
towards that for that very reason.
    Mr. Collins. Do you have a goal in mind there? Again, back 
to vision statements, is there a goal to have early warning at 
least in the most critical areas by date certain and is there a 
way to measure that? And----
    Dr. Applegate. Yes. We have just recently issued an 
implementation plan for earthquake early warning for the West 
Coast, so the beginning phase is the pilot effort in California 
expanding up the West Coast. But in many ways the high hazard 
areas, for example, in the central United States where you are 
likely to have shaking experienced over very broad areas, you 
would actually get additional time before that shaking arrives, 
so less frequent events but the potential for damage over much 
broader areas. So, yes, absolutely, we have those plans in 
place. We would be very happy to share those.
    Mr. Collins. Yeah. No, thank you very much.
    It looks like my time is expired. I yield back, Mr. 
Chairman.
    Chairman Bucshon. Thank you.
    And at this point I would like to thank the witnesses for 
your valuable testimony. It is a very fascinating subject.
    The Members of the committee may have additional questions 
as we asked about the list of funding projects for you and we 
will ask you to respond to those in writing. The witnesses are 
excused, and at this point we will take a very short break 
prior to the next panel. Thank you very much.
    [Recess.]
    Chairman Bucshon. Thank you very much. Now, I will 
introduce our witnesses for our second panel.
    Our first witness of our second panel is Dr. Julio Ramirez. 
Dr. Ramirez is Professor of Civil Engineering, Chief Officer of 
the Network for Earthquake Engineering Simulation and NEEScomm 
Center Director at the George E. Brown, Jr. Network for 
Earthquake Engineering Simulation at Purdue University. And I 
have visited their facility; it is a great facility.
    Our second witness is Dr. William Savage, Manager of 
William Savage Consulting, LLC. He is also an Adjunct Professor 
in the Department of Geoscience and Department of Civil and 
Environmental Engineering and Construction at the University of 
Nevada Las Vegas.
    Our third witness is Mr. Jonathan Monken, Director of the 
Illinois Emergency Management Agency. Mr. Monken previously 
served as Acting Director of the Illinois State Police and 
possesses a distinguished military career having served in 
Kosovo and Iraq. Thank you for that service. It is much 
appreciated.
    Our final witness is Dr. Andrew Whittaker. Dr. Whittaker is 
Professor and Chair of the Department of Civil, Structural, and 
Environmental Engineering at the University at Buffalo, and the 
Director of MCEER.
    As our witnesses know, spoken testimony is limited to five 
minutes each, after which Members of the committee will ask 
questions for five minutes. Your written testimony will be 
included in the record of the hearing.
    I now recognize our first witness, Dr. Ramirez, for five 
minutes.

               TESTIMONY OF DR. JULIO A. RAMIREZ,

                PROFESSOR OF CIVIL ENGINEERING,

        NEES CHIEF OFFICER AND NEESCOMM CENTER DIRECTOR,

                      GEORGE E. BROWN JR.,

         NETWORK FOR EARTHQUAKE ENGINEERING SIMULATION

                   (NEES), PURDUE UNIVERSITY

    Dr. Ramirez. Good morning and thank you for the 
opportunity, Chairman Bucshon, Congressman Lipinski, and 
distinguished Members of the panel, to testify before the 
Congress as you work to reauthorize the National Earthquake 
Hazards Reduction Program, NEHRP.
    I am Julio Ramirez, a Professor of Structural Engineering 
in the School of Civil Engineering of Purdue University in West 
Lafayette, Indiana, and the Chief Officer of the NSF-funded 
George E. Brown, Jr. Network for Earthquake Engineering 
Simulation, NEES.
    Existing vulnerable buildings and infrastructure assets are 
the number one seismic safety problem in the United States and 
the world today. Since the 1980s, I have been involved in the 
development of building codes and conducted research in 
earthquake safety of buildings and bridges. I have lead or 
participated in some eight reconnaissance missions starting 
with the earthquake of Northridge, California. The central 
purpose of these missions was to gather perishable data on the 
performance of bridges and buildings following major 
earthquakes to distill lessons to improve the seismic 
resilience of our society.
    The NEHRP vision is for a nation that is earthquake-
resilient with regard to public safety, economic strength, and 
national security. NEHRP provides the critical support 
structure for seismic protection in the United States. The NSF 
provides the fundamental research arm of NEHRP supporting 
research in engineering, Earth, and the social sciences. To 
mitigate the earthquake risk by reducing the vulnerability of 
the built environment, the NSF-funded NEES originated in 2004 
as a national multiuser research infrastructure, and its 
central mission aligns with the larger NEHRP national plan for 
earthquake risk reduction. May I have the first slide, please?
    [Slide.]
    Dr. Ramirez. NEES laboratories are used for research 
conducted or funded by the NSF, other government agencies, and 
by private industry. To date, more than 400 multiyear, multi-
investigative projects have been completed or are in progress 
at NEES sites. These projects are yielding a wealth of valuable 
experimental data and continue to produce informational 
research and outcomes that impact the engineering practice from 
building models to design guidelines and codes.
    Information on the impact of NEES work is submitted with my 
written testimony as Reference 3, ``NEES, 2004-2014, A Decade 
of Earthquake Engineering Research.'' In this document there 
are--there is information regarding lifelines projects that 
have been funded by NSF and many other references as well.
    The human capital gain in this activity represented by the 
more than 2,000 graduate and undergraduate students that have 
participated in on-site of NEES researchers also supports the 
United States in retaining a competitive edge in the STEM 
areas. Many of the world's global challenges such as the 
mitigation of earthquake risk can best be met with a strong 
presence of engineers working in teams with social scientists 
and other experts, yet the number of U.S. engineering students 
is declining.
    Purdue University and our College of Engineering have taken 
a leadership role as part of a national call to graduate 10,000 
more engineers per year enhancing our state and national 
capacity for innovation, economic growth, and solutions to 
global challenges.
    Next slide, please.
    [Slide.]
    Dr. Ramirez. Linking the NEES experimental facilities to 
its users in the community is the NEES cyber infrastructure. 
This unique system of IT resources enables researchers 
participating at the facilities or remotely to collect, view, 
process, and store data from NEES experiments and to conduct 
numerical simulations with access to key U.S. high-performance 
computing resources.
    At the heart of this system is NEEShub, a platform designed 
to facilitate information exchange and collaboration among 
earthquake engineering research and other stakeholders. NEEShub 
features the NEES Data Repository with over 2.5 million data 
files. This public repository is used to store and share data 
of research and research results.
    Final slide, please.
    [Slide.]
    Dr. Ramirez. Since the first release of NEEShub in August 
2010 it has served tens of thousands of users of more than 200 
countries.
    In conclusion, maintaining a balanced program supporting 
research and the Earth science, engineering, and social 
sciences is important. In achieving resilience of communities 
against earthquakes and tsunamis, engineering-related research 
is of the highest priority as it directly impacts the 
mitigation of the extent of damage to the built environment and 
can reduce the time needed for recovery. Thank you.
    [The prepared statement of Dr. Ramirez follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman Bucshon. Thank you very much.
    I recognize Dr. Savage for five minutes for his testimony.

              TESTIMONY OF DR. WILLIAM U. SAVAGE,

                    CONSULTING SEISMOLOGIST,

                 WILLIAM SAVAGE CONSULTING, LLC

    Dr. Savage. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the Subcommittee.
    I am speaking to you today on behalf of the Seismological 
Society of America, a scientific organization devoted to the 
advancement of seismology and the understanding of earthquakes 
for the benefit of society. I also am speaking specifically 
about lifelines and my experience there devolves from 15 years 
working for Pacific Gas and Electric Company in San Francisco 
in the late '80s until 2000.
    My written testimony addresses four pertinent questions 
that I was asked. Although there is not time this morning to 
cover all four, I would like to discuss the question asked 
about my views on the Nation's level of earthquake preparation 
and resiliency regarding lifelines, particularly the urban 
utility systems for electric power, natural gas, potable water, 
and wastewater. These systems are the underpinning of our 
modern society.
    To get to the essential point, I personally think that we 
actually do not know how resilient our urban utilities systems 
are in terms of their operability to deliver customer service 
after the next strong earthquake. Utility personnel may have 
opinions one way or another but they generally do not have a 
strong objective basis for a definitive statement.
    In my written testimony I briefly discussed four guideline 
documents prepared by FEMA's American Lifelines Alliance that 
use currently available information to provide guidance for 
conducting such assessments for the four types of urban utility 
systems. The guidance calls for systematic and quantitative 
consideration of the two key aspects of each assessment: first, 
specification of the local and regional earthquake hazards, 
both ground shaking and ground failures; and secondly, 
estimation of the expected performance of the utility system 
components given the hazard and the impact of the expected 
performance on customers.
    The American Lifelines Alliance guidelines can only go so 
far in giving a rigorous answer to questions about what would 
happen if this or that earthquake occurred. The next stage of 
lifeline resiliency assessment is calling for development of 
more refined hazard characterizations using advances in 
geotechnical and seismological modeling to estimate ground 
motions and ground failures. The U.S. Geological Survey is 
already engaged in research that is leading to such advances.
    Performance modeling of pipelines, substation equipment, 
overhead transmission structures, et cetera, is also advancing 
with NSF and NIST exploring research in these areas. Operating 
utilities and related professional organizations are evaluating 
the benefits of such advances and are likely to help fund them. 
These advances are necessary to achieve a high level of 
confidence in understanding the earthquake performance of 
lifeline components and thus the resiliency of utility 
operations. One of the mechanisms to pursue this goal is a 
reauthorized NEHRP program. Authorization of this valuable 
program provides continuity and stability for the NEHRP 
agencies.
    In closing, I should point out the obvious. There are two 
ways to find out if a utility lifeline is resilient to 
earthquakes. The first way is to invest in improved hazard 
characterizations and performance models for lifelines and plan 
to mitigate the unacceptable risks. The second way is to just 
wait and see what happens in the next damaging earthquake.
    Thank you for the opportunity to speak before you and I 
would be happy to answer any questions you may have.
    [The prepared statement of Dr. Savage follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Chairman Bucshon. Yeah, hopefully we can use the former in 
that to figure this out.
    I now recognize Mr. Monken for five minutes for his 
testimony.

               TESTIMONY OF MR. JONATHON MONKEN,

            DIRECTOR AND HOMELAND SECURITY ADVISOR,

              ILLINOIS EMERGENCY MANAGEMENT AGENCY

    Mr. Monken. Thank you very much, Chairman Bucshon, Ranking 
Member Lipinski. I very much appreciate the opportunity to be 
here to speak with all of you and represent the Illinois 
Emergency Management Agency, Governor Quinn, and the State of 
Illinois to discuss this incredibly important program of the 
National Earthquake Hazards Reduction Program.
    So it is a critical asset not just in our ability to work 
with the earthquake hazard but all hazards because it is really 
about that collaborative nature that the program is really 
founded under.
    My biggest concern right now with the program overall is 
that the collaborative nature in which it was founded to 
execute is something that we have kind of strayed from over the 
course of the past few years. And there is a variety of 
different reasons why that has happened, but right now, it 
comes at a time when the risk of this particular hazard, we are 
gaining a better understanding of it and we are certainly 
seeing both increased frequency of seismic activity and we are 
getting a better understanding of the severity of the potential 
threat. And that was mentioned earlier with the USGS's release 
of their updated earthquake hazard maps and some of the 
statistics that we see just from the last few years.
    So taken in context in Illinois and the central United 
States, that area of the country on average from 1981 to 2011 
saw an average of 20 earthquakes per year. In the last three 
years we have seen a quintuple increase in the frequency of 
earthquakes to the tune of 100 earthquakes per year. So this in 
another itself is certainly concerning but it also highlights 
the importance of what we are talking about here.
    Now, it is a little-known fact that the most powerful 
earthquake in the continental United States in history actually 
happened in the central United States in 1811 and 1812 when a 
7.7 magnitude earthquake struck and two aftershocks. If a 
comparable magnitude earthquake struck today in the same area, 
it would cause economic damage to the total of about $300 
billion. Put into context, Hurricane Katrina, the most 
expensive U.S. disaster in history to date, was $106 billion.
    So there is a lot of progress that we can make in a lot of 
things that we have seen to make progress in this area in the 
emergency management community. A specific example is the 
CAPSTONE-14 exercise conducted in June of this year when we had 
an opportunity for 2,500 personnel in 20 States to participate 
in this four-day event. We beta-tested the first-ever 
multistate common operating picture sharing more than 13,000 
real-time status updates of critical data from 440 counties and 
seven impacted states. Additionally, we launched the first 
National Resource Database with more than 500 mission-ready 
packaged asset deploying from 18 different states across the 
country. The tools and processes created for this exercise have 
fundamentally changed the way we plan for, respond to, and 
recover from disasters of all types. Additionally, we developed 
awareness campaigns such as the Great U.S. ShakeOut with 
millions of people participating across the country. We also 
improved school safety drills and created public service 
announcements to educate those in areas of the country where 
the threat still remains a relative unknown.
    Despite these successes, these efforts also served to 
identify gaps in our systems and capabilities, as well as the 
inherent weaknesses in our critical infrastructure and life-
support systems. The problem in front of us now is, because of 
these issues, right now the track of NEHRP really threatens to 
not only lose some of the lessons that we have learned in 
recent years but really take us back to a time that predates 
the existence of the program.
    Some of these problems began with the expiration of the 
NEHRP authorization of 2009, as has been discussed extensively 
today, and the lack of reauthorization since then. This program 
absolutely deserves to be a legislative priority and balance 
should be restored in terms of how the program is governed and 
funded. While emergency management plays a significant role in 
earthquake preparation response and mitigation, only 1 of the 
15 Members of the NEHRP Advisory Committee actually comes from 
the emergency management profession.
    From a funding perspective, emergency management is also 
grossly underrepresented, receiving less than seven percent of 
all funds allocated for this particular threat. To make matters 
worse, the state-level earthquake program managers are rapidly 
disappearing due to a decision by the Federal Emergency 
Management Agency pulling all state funding in Federal Fiscal 
Year 2013.
    The need for coordination between all levels of government 
has never been greater, and yet the program continues to lag 
behind at the federal level because of FEMA's NEHRP office 
being buried and fragmented within the agency. This disjointed 
approach makes it even more important for the earthquake 
consortia located throughout the State that perform that 
multistate coordination effort. Language related to consortia 
absolutely needs to be restored as part of the authorization 
recognizing these entities as critical in the process of 
multistate coordination for these particular threats and along 
regional lines.
    The most important change in research and development 
measures is a better integration of the components of the 
program. NEHRP was designed to be a hazard reduction program, 
not just hazard research and to conduct more targeted risk 
assessments based on joint evaluations from program 
participants. These assessments should be focused on more 
detailed impact analysis and sectors of critical infrastructure 
such as road and bridge networks, rail systems, potable and 
wastewater systems, voice and data communications in the 
national power grid to use the limited resources that we have 
on the most important projects first.
    I appreciate the time here today and I look forward to any 
questions that you might have.
    [The prepared statement of Mr. Monken follows:]
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    
    Chairman Bucshon. Thank you very much.
    I now recognize Dr. Whittaker for his testimony.

             TESTIMONY OF DR. ANDREW S. WHITTAKER,

              PROFESSOR AND CHAIR, DIRECTOR MCEER;

              DEPARTMENT OF CIVIL, STRUCTURAL AND

                   ENVIRONMENTAL ENGINEERING,

                     UNIVERSITY AT BUFFALO,

                  STATE UNIVERSITY OF NEW YORK

    Dr. Whittaker. Chairman Bucshon, Ranking Member Lipinski, 
and other Members of the committee, good morning.
    My name is Andrew Whittaker and I am delighted to appear 
before you this morning. I am an academic structural engineer 
employed as a Professor of Civil Engineering in the Department 
of Civil, Structural, and Environmental Engineering at the 
University at Buffalo and I serve as the Director of the 
earthquake-focused center known by the acronym MCEER.
    Your letter of invitation asked me to respond to four 
specific items in my written testimony and I talk to only one 
of the four today for reasons of time. And the question is what 
are your recommendations for research and development measures 
in earthquake preparation and mitigation?
    The United States Geological Survey is building the 
Advanced National Seismic System, as identified previously by 
Dr. Applegate. Information from the instruments in the System 
will permit refinement in the mapping of the earthquake 
hazards, the development of improved ground motion prediction 
equations, and a much better understanding of how clusters of 
buildings respond to earthquakes. Importantly, the successful 
and complete deployment of the Advanced National Seismic System 
by the USGS will enable the Earthquake Early Warning System 
that was identified previously. ANSS is not being deployed at 
the speed originally envisioned and I recommend that ANSS be 
completed as quickly as possible and that its maintenance and 
use be adequately funded.
    Second, the National Science Foundation has operated the 
NEES collaboratory since 2004. As Professor Ramirez noted, the 
equipment sites within the collaboratory offer unique physical 
testing capabilities ranging from geotechnical centrifuges to 
earthquake simulators to a tsunami wave basin. University at 
Buffalo is home to one of these NEES equipment sites. Professor 
Ramirez identified the benefits of NEES that have found their 
way into our building standards and building codes already. The 
NEES collaboratory will end in September 2014 to be replaced by 
a smaller number of equipment sites with an expanded treatment 
of hazards. It is unclear what the impact on seismic risk 
reduction and earthquake resilience will be, but the momentum 
we have gained over the past decade will certainly be lost 
unless the National Science Foundation's support for earthquake 
engineering research is maintained at current levels or 
increased.
    Five subject areas deserving of future NEHRP resources are 
identified in my written testimony and these cut across the 18 
elements of the National Research Council roadmap. I will focus 
here on three of the five. First, lifelines. Lifelines such as 
water, gas, and oil pipelines, power transmission systems, and 
rail lines and highways and bridges provide the core of 
resilience. Their failure or part thereof has led to 
significant cascading financial losses in past earthquakes and 
their unavailability after an earthquake dramatically slows 
response and recovery. The interdependency of lifelines and the 
regional and national economic and social impacts of their loss 
in the event of a major earthquake are not understood. 
Lifelines should be a focus of NEHRP because they substantially 
affect earthquake resilience and in my opinion have received 
far too little attention to date.
    Progress has been made in the domain of performance-based 
earthquake engineering through NSF funding, NEES research, and 
the FEMA-funded ATC-58 project. Additional work is needed to 
refine the tools and calculation procedures, address other 
types of buildings and structural systems, to better consider 
the effects of soil structure interaction, and to extend the 
products to non-building structures.
    Technology transfer and earthquake engineering has 
traditionally been accomplished by the promulgation of codes, 
standards, and guidelines. NEHRP has made many significant 
contributions to the standards, codes, and guidelines, and 
these efforts must be continued. In the past six years, NIST 
has sponsored the preparation of technical briefs that 
transform basic and applied research into practical guidance 
for design professionals, enabling them to fully leverage 
federal investments in NSF and USGS, and this activity must 
also continue.
    FEMA plays a critical role in implementing risk mitigation 
measures developed by its NEHRP agency partners and others, and 
I recommend that support for FEMA be substantially strengthened 
to enable effective implementation, which is the key to 
achieving resilience.
    In closing, continued support at NEHRP is vital because the 
risk our nation faces measured here in terms of economic loss, 
business interruption, dislocation of social fabric, and 
casualties grows by the day because mission-critical 
infrastructure, property, and population density are increasing 
in locations affected by earthquakes. Our nation will not 
become earthquake-resilient if the NEHRP agency partnership 
with the earthquake professional community is ended.
    Thank you for the opportunity to testify today.
    [The prepared statement of Dr. Whittaker follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    
    
    Chairman Bucshon. Thank you very much for your testimony 
and thank all the witnesses. And be assured that your written 
testimony is critical to the committee even though we don't 
have a large number of Members here today. Your both spoken and 
written testimony is critical when we try to reauthorize these 
programs. So I wanted you to know that.
    Also, I thank Mr. Monken because this past winter I had two 
family Members stuck on I-57 for about 12 hours when you had 
that big snowstorm. But--I don't know if you were there then 
but--and your agency was very responsive trying to find out the 
status of my family. It was about ten below zero and there were 
accidents on 57 and people were stuck for a long time, so thank 
you. And I will take that personal privilege to thank your 
agency at this point.
    Mr. Monken. You are very welcome, sir.
    Chairman Bucshon. And I am going to remind the Members that 
the committee rules limit questioning to five minutes.
    The Chair at this point will recognize himself for five 
minutes. And I will direct this to Dr. Ramirez.
    And I say this a little tongue-in-cheek, are all the major 
problems in earthquake engineering solved and should we now 
focus on solving problems in response and recovery?
    Dr. Ramirez. Thank you, Chairman, for the question.
    To improve the resilience of our society, it is important 
not only to facilitate the road to recovery but also to limit 
the amount of damage that occurs after an event. And here is 
where mitigation plays a critical role not only in identifying 
the vulnerable infrastructure, assessing it properly, and then 
putting in place measures to upgrade its performance. Work is 
very much needed in that area and should be continued.
    Chairman Bucshon. And Purdue has--also to you, Dr. Ramirez, 
Purdue has pledged to increase the number of engineers 
graduated. How do undergraduate and graduate engineering 
students participate in the research funded by the National 
Science Foundation grant to Purdue and NEES, and how does that 
contribution to their success--how does that contribute to 
their success post-graduation?
    Dr. Ramirez. Thank you. The contribution is essential in 
the development of the conduct of the research. They do it at 
various levels. One of the most successful programs in NEES is 
the research experience for undergraduates. Since the program 
was instituted about eight years or so ago, close to 700 
undergraduates have benefited from this experience. Of those, 
fully half of them have continued to do research as graduate 
students in the earthquake engineering field. Furthermore, in 
these last two years, graduates from the REU program have been 
now graduate students mentoring current REU students.
    The graduate students are the blood of the research that is 
conducted throughout NEES, fully including Ph.D.s and masters. 
Over 1,200 of them have gotten their degrees through Purdue. Of 
the Ph.D. students, 75 percent of them have gone into academia 
and are now many of them researchers in NEES as well.
    Chairman Bucshon. Thank you very much.
    And this would be for all witnesses. What is the greatest 
weakness in the current approach to earthquake mitigation? 
Anyone want to tackle the question?
    Mr. Monken.
    Mr. Monken. So, first off, I was in the emergency 
operations center all night. I didn't sleep until everyone made 
it out at about 5:00 a.m.----
    Chairman Bucshon. You remember that, right?
    Mr. Monken. Every--absolutely. January 6 I will not forget.
    Chairman Bucshon. Yeah.
    Mr. Monken. I think for--when it comes to mitigation the 
hard part is the size of the elephant is enormous and trying to 
prioritize those efforts is where we run into significant 
issues. There is not enough funding in the world and there 
aren't enough programs in the world to address them all. And I 
think the untapped potential that exists with the Members of 
the NEHRP really comes down to a more targeted approach of risk 
assessment as we go through and identify the projects that are 
most critical. So when we look at those lifeline sources, that 
was articulated well by many of the witnesses here today, 
starting with some of those systems to be able to try and 
address some of the systemic weaknesses that exist within the 
systems I think will have the most significant impact in terms 
of loss of life and property. So that prioritization I think in 
mitigation is the biggest shortfall that we had today to make 
sure that we are making the best use of limited assets.
    Chairman Bucshon. How do we do that? How do we make that 
happen?
    Mr. Monken. I think with a greater integration when we look 
at things like the exercises that we conduct and a better 
integration with the private sector. So the last exercise we 
conducted was extremely valuable because we had 45 companies 
running parallel exercises simultaneously to give us a better 
and more detailed understanding of that 85 percent of all 
critical infrastructure that resides within the private sector. 
So they can help us prioritize some of their efforts and we can 
do a better assessment holistically if we see that better 
cross-section of the research community embedded within the 
exercise programs of emergency management as well.
    Chairman Bucshon. Anyone else have any comments?
    Dr. Savage.
    Dr. Savage. I think the uncertainty in the NEHRP 
organizations based on the lack of authorization of the program 
is a tremendous threat, and I think that action that you all 
are looking at is probably in the near term the most important 
thing that can be done.
    Chairman Bucshon. Thank you. Dr. Whittaker, you have----
    Dr. Whittaker. Just a short comment. You asked what is the 
greatest weakness in risk mitigation? I would say not knowing 
our exposure. And in my written testimony I have an example of 
the ports of L.A. and Long Beach through which 40 percent of 
our nation's imports flow. The loss of those ports would have a 
catastrophic financial impact on our nation, not just Southern 
California but the impact would stretch all the way across the 
country. We just don't yet know what those impacts would be. We 
don't know the interdependency of the lifelines, and until we 
do, it will be difficult to develop cost-effective mitigation 
strategies.
    Chairman Bucshon. Thank you.
    I now recognize Mr. Lipinski.
    Mr. Lipinski. Thank you, I want to start off by thanking 
Dr. Ramirez for emphasizing the need for more training for more 
engineers in our country. We certainly need more engineers in 
our nation and we need more engineers in Congress also I think.
    Director Monken, I want to also thank you for your service 
to our nation and your service now to the State of Illinois. 
Obviously from what Chairman Bucshon was--the story he relayed, 
you are doing a good job there in some very tough times.
    One question I wanted to ask Director Monken, how is the--
how is your work with the federal government? Is there more 
that the federal government can be doing, in terms of 
coordinating with States? Is there anything that you would 
recommend?
    Mr. Monken. Yeah, I think there is a couple issues that are 
out there right now. One is that the National Earthquake 
Program is not treated similarly to other catastrophic hazards, 
specifically hurricane is an example. So the National 
Earthquake Program does not have a dedicated program manager; 
there is not an SES-level individual at FEMA dedicated to the 
earthquake program. It is currently housed in Mitigation, which 
is not obviously an unimportant component of what we are 
talking about. It is hugely important. However, it does not 
give--because of its presence in Mitigation, it doesn't give it 
full access to the capacity of FEMA as the hurricane program 
has in the response and recovery division in terms of access to 
funding, additional resources, things like that.
    And then as I mentioned in my testimony, the removal of 
funding directly to States to fund earthquake program managers 
at the state level being pulled in Fiscal Year 2013 has really 
created a situation now where we have very, very limited 
engagement. Right now, there are more FEMA regions that don't 
have an earthquake program manager than FEMA regions that do, 
and that is a huge problem because that is the point of 
coordination for emergency management nationally and it also 
underscores the importance of these consortia, the three 
earthquake consortia located throughout the United States that 
are region-specific. And they perform an incredible task of 
that state-to-state coordination and yet have not seen any 
changes in their funding or programmatic or policy-level 
support in the past 20 years. So the lack of emphasis on some 
of those grassroots coordinating programs I think has had a 
detrimental effect.
    Mr. Lipinski. And one other question I wanted to ask, as 
you notice a theme here, I am an engineer. I am also a social 
scientist. I have always asked about the social science aspects 
of--any issue that we are dealing with and the research and how 
you deal with the human element.
    So let me start with Director Monken. What kind of work do 
you do to try to ensure that people of the State of Illinois 
understand the risks from earthquakes? Is this a--do you find 
this to be a big problem? I know most people are going to think 
more about tornadoes than they do about earthquakes, but how 
does all of that come together? And what you do in terms of 
trying to make people aware of the risk and also to prepare 
them--so that they know what to do in case there is a major 
earthquake?
    Mr. Monken. Yes, sir. It is a great question and I think it 
is accurately highlighted as a significant issue. We have had 
11 declared disasters in Illinois in the last five years, none 
of which were earthquakes, so that is really where a lot of the 
emphasis happened. But I think some of the public awareness 
campaigns that we have done, the areas where we have had 
specific success is certainly within schools and that is where 
Chairman Bucshon was right on. Elementary school students, 
these are the folks that actually retain this information for 
the rest of their lives. Adults have made up their minds for 
all intents and purposes. In trying to reach out to students 
and educate them on those threats, there is the educational 
component that exists with it and that extends through the 
development and training of engineers at all levels. All those 
levels of understanding are important.
    We also saw that our PSAs were actually generated by high 
school and college students in the States, so we actually put 
it to them to come up with public awareness campaigns, videos, 
and radio bits that were much more effective in actually 
reaching their peers instead of a government person like myself 
trying to relate to a 12-year-old and telling them why this is 
important. Have another one of their fellow students 
communicate that message to them.
    And the ShakeOut grew from just a handful of a few thousand 
people the first year to the annual competition between 
Illinois and Indiana to see who can get more people to 
participate and over 10 million people participating nationally 
last year, those are successes that really need to be 
reinforced.
    Mr. Lipinski. Thank you, and I appreciate all of the 
witnesses' comments on NEHRP, and again I emphasize that 
hopefully we will get reauthorization done. And I think all of 
your comments have--are very helpful to us as we work to move 
that forward.
    So I yield back.
    Chairman Bucshon. Thank you.
    I recognize Mr. Hultgren.
    Mr. Hultgren. Thank you, Chairman. Thank you so much, 
panel, for being here. I think this is really important for us 
to be able to hear how NEHRP affects practitioners, especially 
those at the state and local level, really on the ground, so I 
really thank you. And I especially want to thank Director 
Monken. So good to have you here. I appreciate your service to 
our country and to our State, and please say hi to your family 
back in St. Charles as well.
    Mr. Monken. Yes, sir. Will do.
    Mr. Hultgren. I am glad you are here.
    Director Monken, I wanted to address a couple questions to 
you first if I could. First, does NEHRP program--does the 
program produce actionable data for the emergency management 
community? If so, what types of data are produced, shared, and 
utilized, and how are technical guidance, behavior research, 
and other information produced by NEHRP agencies shared with 
local stakeholders?
    Mr. Monken. So the answer is yes and no. So there is 
actually an incredible amount of information and data that is 
generated from the entities that are represented here as 
witnesses today and many other folks who are not, but the hard 
part is turning information into intelligence, and the 
difference is whether or not it is actionable. And we have 
gotten a good partnership with U.S. Geological Survey. We had 
been able to use some of there what they call the PAGER program 
where people can actually report ground shake from their mobile 
phones to give us a clear picture of what is happening and to 
what extent the ground is shaking. Those things are all very, 
very important.
    What we want to do is tie it together in a more practical 
sense and have a more collaborative outreach between emergency 
management to make sure that those efforts are as integrated as 
possible to make sure that the time being spent on research is 
targeted to the areas with greatest impact in terms of lives 
and property saved and really trying to make sure that it is 
more of a user-defined system.
    So some of the information-sharing that we pilot-tested 
during the exercises here was unprecedented. Four hundred and 
forty counties in seven States have never shared data in any 
way, shape, or form in any disaster in U.S. history. I can't 
overstate the importance of that. But the research community 
absolutely needs to be integrated into that process to make 
sure that the models that are being generated and research are 
being compared and utilized to effectively execute the 
exercise.
    Mr. Hultgren. Is there an openness you think for that, 
first of all recognizing that the successes of the pilot 
program but then seeing potential hurdles and dealing with 
those hurdles? Is there an openness there? I guess how can we 
help?
    Mr. Monken. Yes, sir. Well, certainly the reauthorization 
of the program is hugely important and some of the changes I 
mentioned at FEMA I think would go a long way to making sure we 
are doing that, and then supporting the consortia because that 
is--CUSEC, the Central United States Earthquake Consortium that 
Illinois and Indiana are part of, was actually the organization 
that ran that exercise. It wasn't a federally led effort. So 
reinforcing that type of success is absolutely important.
    But I think it is fertile ground. Everybody wants the same 
thing when it comes down to it. The hard part is making sure, 
as I mentioned, the NEHRP Advisory Council out of 15 people 
only has one emergency manager on it. It is very difficult to 
understand local and state impact when they are not represented 
on that group that is consulting on how we should be guiding 
the program. So that is hugely important.
    But I think it is fertile ground to do it and I think the 
folks that are doing the research, they want that input; they 
want that interplay because it only makes their research more 
targeted and more effective just like we want access to that 
information to build our exercises around and then ultimately 
compare that to a real-world event.
    Mr. Hultgren. Dr. Monken, I wondered if you could address--
quickly, we touched on this a little bit--but if you could talk 
a little bit more about the state of research and development 
for hazard mitigation tools and products. These activities must 
meet the needs of state and local officials who must prepare 
their communities for disaster and help them respond. How well 
do NEHRP activities meet state and local needs and how could 
efforts be better aligned? We kind of touched on that already, 
but what are the lessons that can be drawn from the resilience 
demonstrated in responding to a moderate earthquake and in 
preparing for a great one?
    Mr. Monken. So I think the issues that we have seen that we 
have run into is in large part some of the state and local 
mitigation programs are very compartmentalized. So each of the 
programs or proposals are analyzed individually. So as we go 
through the FEMA process for spending mitigation dollars, each 
program is evaluated on its own merits without a great deal of 
consideration for the interconnectivity with corresponding 
projects in the same area of impact within the same scope of 
the hazard.
    So I think that component needs to be brought to bear in 
more detail, not to mention the fact that in many cases if it 
is the private sector that benefits specifically from it, so if 
it is a utility company that has a mitigation project they want 
to do, that is not something that we do within the federal 
mitigation program. So how do we coordinate their efforts to 
make sure that we don't build, as we like to say, cylinders of 
excellence or these individual silos that are--that have these 
pockets of competency that aren't really tied into the 
interconnectivity of these lifeline systems that are out there?
    So that is where the private sector outreach comes into 
play. So utility companies alone, there are 3,000 utility 
providers in the country, and trying to tie those folks 
together is difficult but they are willing participants to do 
it. And I think some of the issues are really known. If an 
earthquake like this hit the central United States, power would 
be out for 6 to 9 months, not days or weeks.
    Mr. Hultgren. Yeah. Well, my time is coming to a close. 
Thank you again, all of you, for being here. I appreciate your 
input on this important program.
    Thank you. I yield back.
    Chairman Bucshon. Thank you.
    At this point I will thank all the witnesses for your 
valuable testimony. Like I said, your written testimony--your 
spoken testimony is very important to the committee and for the 
Members for their questions.
    The Members of the committee may have additional questions 
for you and we will ask you to respond in writing. The record 
will remain open for two weeks for additional comments and 
written questions from Members.
    At this point the witnesses are excused and the hearing is 
adjourned.
    [Whereupon, at 11:49 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions




                   Answers to Post-Hearing Questions
Responses by Dr. Pramod P. Khargonekar



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Roy E. Wright


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Dr. Julio A. Ramirez


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. William U. Savage


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Mr. Jonathon Monken


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Andrew S. Whittaker



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record




                  Statement submitted by Subcommittee
                     Ranking Member Daniel Lipinski

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      Letters submitted by Subcommittee on Research and Technology
                         Chairman Larry Bucshon
                     
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


        Letter submitted by Mr. Jay Berger, Executive Director,
               Earthquake Engineering Research Institute


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
